                                  News From
                        The Office of Inspector General
                    Corporation For National And Community Service




Guilty Plea In Education Award Scam

A former Missouri AmeriCorps member has pled guilty to defrauding the Federal
government by illegally attempting to divert more than $9,000 of Education
Award funds to make automobile and home mortgage payments.

The Office of Inspector General (OIG) launched its investigation of Kerry D.
Smith of Purdy, MO, after being alerted by officials of the Corporation for National
Community Service’s (Corporation) National Service Trust, which administers
and funds the Education Award program.

Investigators found that Purdy in 2003 submitted to the Corporation a fraudulent
education award voucher, which included a bank official’s forged signature, for
$4,725. She claimed the money would be used to pay off a college loan. She
actually used $2,410.40 of the award to pay off an auto loan and arranged to
keep the balance for her own use.

In 2004 Purdy attempted to pull off a second scam by filing a voucher that would
have allowed her to use a second $4,725 Education Award to pay her home
mortgage. That transaction was blocked by Trust officials.

Purdy, who admitted the scams to OIG investigators, pled guilty in U.S. District
Court on June 20, 2005, and was sentenced to three years of supervised
probation, ordered to make full restitution of her 2003 Education Award and
assessed $50 in court fees.

The Corporation makes Education awards of up to $4,725 to AmeriCorps
members who have completed terms of up to 1,700 hours of community service.
The funds can only be used to pay for college tuition or to retire student loans.
Education Awards are paid directly to members’ schools or to the holders of their
student loans.
